HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Educational
Services, Inc.," (A-03-06-00505)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With Educational Services, Inc.," (A-03-06-00505)
March 12, 2007
Complete Text of Report is available in PDF format (91 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit is one of a series of reviews of procurements by the Program Support Center (PSC) in response to Hurricanes Katrina and Rita in 2005.
Educational Services, Inc.’s (ESI) existing contract obligated ESI to provide logistical support for conferences. Modifications to the contract obligated ESI to furnish travel services to hurricane victims and responders.
PSC complied with Federal Acquisition Regulations (FAR) and HHS Acquisition Regulations requirements during the award process for modifications. The modifications were within the scope of the existing contract, which was based on full and open competition. Pursuant to FAR 6.001(c), the modifications were exempt from requirements for full and open competition.